OFFICE OF INSPECTOR GENERAL




AUDIT OF USAID/EGYPT’S
EMERGENCY PREPAREDNESS
AND EVACUATION TRAVEL
PAYMENTS
AUDIT REPORT NO. 6-263-12-005-P
FEBRUARY 9, 2012


CAIRO, EGYPT
Office of Inspector General



February 9, 2012

MEMORANDUM

TO:       	          USAID/Egypt Mission Director, Walter North

FROM: 	              Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	            Audit of USAID/Egypt’s Emergency Preparedness and Evacuation Travel
                     Payments (Report No. 6-263-12-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report and have included them in Appendix II
(attachments excluded).

The report includes 16 recommendations to USAID/Egypt. In response to the draft report,
USAID/Egypt officials agreed with eight recommendations, partially agreed with one, and
disagreed with the remaining seven. On the basis of information provided by USAID/Egypt in
response to the draft report, we determined that management decisions have been reached on
Recommendations 2, 4, 5, 6, 11, 12, and 15. No management decisions have been reached on
Recommendations 1, 3, 7, 8, 9, 10, 13, 14, and 16. In addition, USAID/Egypt took final actions
on Recommendations 2, 5, and 15.

The Audit Performance and Compliance Division in the USAID Office of the Chief Financial
Officer will determine whether final action has been achieved on Recommendations 4, 6, 11,
and 12 upon completion of the proposed corrective actions. Please determine management
actions for Recommendations 1, 3, 7, 8, 9, 10, 13, 14, and 16, and provide RIG/Cairo with
action plans and target dates within 30 days of the final report.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street,
off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     USAID/Egypt Did Not Have Some Elements of a Continuity of Operations Plan ................... 4 


     USAID/Egypt Did Not Correctly Calculate and Pay Some Evacuation Benefits ..................... 6 


     USAID/Egypt Did Not Approve a Telecommuting Arrangement Properly ............................... 7 


     USAID/Egypt Did Not Pay Advances Appropriately ................................................................ 9 


     USAID/Egypt Employees Did Not Use the Required Government Travel Card .................... 11 


     USAID/Egypt Did Not Require Adequate Documentation for Some Reimbursement 

     Requests ............................................................................................................................... 12 


     USAID/Egypt Did Not Obtain Invoices for Intragovernmental Transactions ......................... 13 


     USAID/Egypt Employee Used the U.S. Military Postal Service Inappropriately for 

     Unaccompanied Air Baggage ............................................................................................... 14 


     USAID/Egypt Did Not Ensure Timely Submission of Reimbursement Requests .................. 15 


Evaluation of Management Comments................................................................................... 17 


Appendix I—Scope and Methodology .................................................................................... 20 


Appendix II—Management Comments ................................................................................... 22 


Appendix III—Some Allowances Available for Evacuated Employees ................................ 31


Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
DoS             Department of State
DSSR            Department of State Standardized Regulations
FY              fiscal year
GAO             Government Accountability Office
GMRA            Government Management Reform Act
M&IE            meals and incidental expenses
OFM             Office of Financial Management
TDY             temporary duty travel
UAB             unaccompanied air baggage
SUMMARY OF RESULTS 

U.S. State Department (DoS) employees and their families occasionally must be evacuated
from embassies in countries during war, terrorism, natural disasters, or disease outbreaks.
These incidents also can affect USAID missions since they often are attached to embassies.
According to a 2007 Government Accountability Office report, the scale of evacuations differs in
scope and size; typically, they are “authorized or ordered departure[s] of staff and
dependents.”1 Evacuations such as these happen a few times a year. Between March 2002
and August 2007, DoS ordered 60 evacuations from overseas posts, of which 20 occurred in
the Middle East.

The January 2011 revolution in the Arab Republic of Egypt prompted DoS to authorize
nonemergency U.S. Embassy Cairo personnel2 and dependents to go to the United States or
other designated safe havens at the expense of the U.S. Government. The department
authorized this voluntary departure on January 30, 2011. However, on February 1, 2011, it
upgraded the evacuation from an authorized departure to an ordered departure, which required
all nonemergency personnel and dependents to leave the country immediately. Consequently,
the U.S. Embassy Cairo evacuated 45 USAID/Egypt U.S. employees with 70 dependents to the
United States or other designated safe havens. On April 29, 2011, DoS, in consultation with the
U.S. Ambassador to Egypt, lifted the ordered evacuation, allowing all employees and their
dependents to return.

At USAID/Egypt, two primary offices were involved in functions associated with the evacuation.
The Executive Office was responsible for coordinating with the Embassy to provide and verify
human resources information; ensuring the continuity of operations at the mission; preparing
evacuation travel authorizations; and coordinating authorized travel for employees during the
ordered departure. The USAID/Egypt’s Office of Financial Management (OFM) was responsible
for funding the travel authorizations and reviewing, processing, and reimbursing employees for
allowable evacuation expenses. As of June 30, 2011, USAID/Egypt had reimbursed $962,4003
to employees and DoS for evacuation expenses.

To help offset added expenses incurred by evacuees, DoS authorized special allowances for
travel, subsistence expenses at safe haven locations, transportation, and some shipping costs.
The evacuation entitlements are specified in the Department of State Standardized Regulations
(DSSR), Chapter 600, “Payments During an Ordered/Authorized Departure,” and are
summarized in Appendix III.

The Regional Inspector General/Cairo added this audit to its fiscal year (FY) 2011 audit plan
after identifying anomalies with some reimbursement requests during USAID/Egypt’s FY 2011
Government Management Reform Act (GMRA) audit and the “Audit of Selected Payments by
USAID/Egypt for Evacuation Travel and Related Allowances.” This audit also focused on the
mission’s plans and preparedness to address emergencies.

1
  “State Department: Evacuation Planning and Preparations for Overseas Posts Can be Improved,” 

GAO-08-23, October 19, 2007, page 10.

2
  Different agencies and departments, such as USAID/Egypt, are assigned under the U.S. Ambassador at 

the U.S. Embassy Cairo.

3
  In addition, USAID/Egypt processed 52 reimbursement requests and paid $222,600 of evacuation 

benefits to Regional Inspector General/Cairo staff members. This amount was excluded from the audit. 


                                                                                                   1
Although the mission performed quick-response evacuation actions commendably,
USAID/Egypt can improve its continuity of operations plans to better prepare for emergencies.
In addition, as a result of some unallowable evacuation benefits and miscalculations of
expenses, USAID/Egypt paid unallowable costs of $4,1754 and did not pay $1,111 in allowable
expenses. The audit identified the following issues that the mission will need to address:

   USAID/Egypt did not have some elements of a continuity of operations plan (page 4). 


   USAID/Egypt did not correctly calculate and pay some evacuation benefits (page 6).


   USAID/Egypt did not approve a telecommuting arrangement properly (page 7). 


   USAID/Egypt did not pay advances appropriately (page 9). 


   USAID/Egypt employees did not use the required government travel card (page 11). 


   USAID/Egypt did not require adequate documentation for some reimbursement requests 

    (page 12).

   USAID/Egypt did not obtain invoices for intragovernmental transactions (page 13).

   USAID/Egypt employee used the U.S. Military Postal Service inappropriately (page 14).

   USAID/Egypt did not ensure timely submission of reimbursement requests (page 15).

To address these issues, this audit recommends that USAID/Egypt:

1. 	Develop and implement an internal control to update consolidated personally identifiable
    information for employees and dependents as needed, and submit it to the appropriate
    Embassy personnel (page 6).

2. 	Identify and document essential functions and activities, and determine the minimum
    resources needed to perform critical operations in an emergency (page 6).

3. 	 Determine the allowability of questioned costs valued at $4,175 and nonpayment of $1,111,
     and recover from or remit to the employees amounts deemed appropriate (page 7).

4. 	Provide and document training to financial management employees on regulations
    governing evacuation entitlements (page 7).

5. 	 Review and document the work produced by the employee for the 88 hours of regular duty
     claimed, determine the allowability of payments made, and collect any overpayments
     (page 8).




4
 Additionally, “Audit of Selected Payments by USAID/Egypt for Evacuation Travel and Related Allowances”
(Report No. 6-263-12-001-P, December 13, 2011) identified $5,112 in unallowable costs.

                                                                                                     2
6. 	 Develop, document, and implement mission procedures for obtaining appropriate approvals
     for any deviations from U.S. federal regulations regarding advances for evacuation travel
     (page 10).

7. 	Document the availability of advances for U.S. direct-hire staff during evacuations in the
    mission’s procedures on financial management advances and accounts payable (page 10).

8. 	 Include the requirement for the use of government-sponsored travel cards in Section 7 of the
     AID 5-8 Travel Authorization Form to remind employees of their financial management
     responsibilities (page 12).

9. 	 Issue a written reminder to all employees about the possible penalties for not following the
     guidelines requiring the use of the travel cards (page 12).

10. Determine the type of offense, administer the appropriate penalty, and document it in the
    appropriate mission or personnel file, if warranted (page 12).

11. Provide and document training to financial management employees on retaining in the
    mission’s electronic filing depository appropriate supporting documents for financial
    transactions (page 13).

12. Develop a checklist of relevant documents that financial management employees can use to
    verify the completeness of a travel voucher package before processing employee
    reimbursements (page 13).

13. Revise and implement its intragovernmental transactions recording procedures to require
    financial management employees to obtain, review, and maintain supporting documentation
    for all intragovernmental transactions (page 14).

14. When warranted, include in Section 7 of the AID 5-8 Travel Authorization Form guidance
    indicating that use of the U.S. Military Postal Service for unaccompanied baggage is
    prohibited (page 15).

15. Periodically remind all travelers that they must file a travel voucher within 5 business days of
    completing travel or every 30 calendar days during extended travel (page 16).

16. Include in Section 7 of the AID 5-8 Travel Authorization Form the requirement to submit a
    travel reimbursement request within 5 business days after completing travel (page 16).

Detailed findings are included in the following section. Appendix I contains information on the

scope and methodology. Management comments are included in their entirety in Appendix II,

and our evaluation of management comments is included on page 17.

.





                                                                                                  3
AUDIT FINDINGS 

USAID/Egypt Did Not Have
Some Elements of a
Continuity of Operations Plan
The U.S. Government has published several directives to provide guidance on continuity of
operations planning. In February 2008, the Department of Homeland Security published the
Federal Continuity Directive 1, “Federal Executive Branch National Continuity Program,” to
provide direction for the development of continuity plans to address “no notice emergencies,
including localized acts of nature, accidents, technological emergencies, and military or terrorist
attack-related incidents.” As defined in the directive, a continuity plan helps facilitate the
performance of essential functions before, during, and after an event to minimize disruptions of
normal operations. Furthermore, requirements of a continuity plan include documented plans
and procedures delineating essential functions; identifying a specific order of succession and
delegation of authority; identifying human capital consideration; identifying and protecting vital
records and databases; identifying alternate operating facilities; and discussing the continuity of
communications validated through tests, training, and exercises. The Federal Continuity
Directive 1, Annex I, “Vital Records Management,” provides guidance about the identification,
protection, and availability of vital records and hard-copy documents, including official personnel
records and inventory records, among others. In addition, the Privacy Act of 1974 defines a
“record” as any item, collection, or grouping of information about an individual that is maintained
by an agency that contains personally identifiable information.5

To prepare for the evacuation, USAID/Egypt officials compiled a list that included employees
and dependents to be evacuated and identified essential employees who would remain at their
assigned duty station (post). According to the deputy executive officer at the time of the
evacuation, the former deputy mission director assisted by communicating directly with USAID
office directors to get information on the employees and dependents that U.S. Embassy Cairo
wanted to evacuate. This information included the employees’ and dependents’ home of record
or desired safe haven location, emergency contact information, passport numbers, and current
locations. Although certain personnel information was available in a shared post personnel
database, mission officials could not come to the office because of the civil disruption, and the
Government of Egypt blocked Internet service at employees’ homes. Therefore, USAID/Egypt
officials contacted employees directly through telephone access provided by the U.S.
Government to verify the information.

During the evacuation, according to the executive officer, USAID/Egypt’s former deputy mission
director also identified 7 of 12 departments as essential, and, after coordinating with Embassy
personnel, determined a reduced staffing level. Mission officials decided that nine U.S.
employees6 should remain at USAID/Egypt to perform essential functions.


5
   According to USAID guidance, personally identifiable information is any information an agency
maintains about an employee that includes, but is not limited to, name, address, telephone, e-mail
addresses, and any other descriptors; when this information is combined, it can identify the employee.
Access to this information should be protected as required by the Privacy Act of 1974, as amended.
6
  The essential employees were the mission director, deputy mission director, executive officer, controller,
and five office directors or assistant directors.

                                                                                                          4
At USAID/Egypt, six offices have regional responsibilities7 to provide services such as
procurement, legal, program management oversight, and financial functions for other missions
operating in the Middle East and Asia, North Africa, and Europe. For example, USAID/Egypt’s
OFM supports nine8 other USAID missions with accounting, budgeting, financial analysis, and
processing for some financial transactions. Understandably, because of the disruption caused
by the evacuation and the limited number of employees at the mission, the OFM did not process
financial transactions for Iraq, Pakistan, Afghanistan, and Sudan.

USAID/Egypt’s Executive Office developed a mission policy on continuity of operations on
September 11, 2011, for the mission’s continuity of operations plan. However, that policy is a
centralized source of compiled information about practices, plans, and procedures that
USAID/Egypt will use or uses to prepare for emergencies; it is not a continuity of operations
plan. Such a plan may (1) provide critical information about the mission employees and their
dependents as a quick reference that contains contact information and other personally
identifiable information in case of emergencies, and (2) identify essential mission functions and
the staff needed to perform them.9

Responding to a question about the need for personally identifiable information about mission
employees, the executive officer said that since USAID/Egypt developed a summary of this
information during the evacuation, there was no need to update and maintain it because it could
be developed anytime. However, the Embassy demonstrated the need to maintain this type of
data during October and November 2011, when Embassy personnel requested and updated
personally identifiable information about the mission’s employees and their dependents.
Consequently, USAID/Egypt was asked to verify and update its employee data in response to
Embassy personnel requests.

Although the executive officer said some mission officials had considered functions the mission
would require in an emergency, USAID/Egypt had not documented essential office activities or
the minimum number of staff members needed to perform them. The executive officer said
mission officials did not predetermine essential office activities and resources because it was
best to keep the identification of essential personnel flexible to allow officials to make decisions
on functions needed by the mission.

USAID/Washington’s Bureau for Management, Office of Management Services, provides the
oversight for the agency’s continuity of operations plans for headquarters’ offices. The bureau’s
emergency manager said that although USAID/Washington provides management oversight for
its Washington offices, the agency does not have staff assigned specifically to modify and
simplify continuity of operations plans for overseas missions. According to the emergency
manager, USAID has guidance on information needed in a continuity of operations plan, but
missions do not have a standardized process for developing one, although some bureaus or
offices in Washington provide explicit instructions for missions or overseas offices. As a result,
USAID/Egypt follows the lead of its cognizant U.S. Embassy.



7
  These include the procurement, financial management, executive, and legal offices; the Office of Middle

East Programs; and the Regional Inspector General/Cairo. 

8
  Those missions are Afghanistan, Iraq, Lebanon, Morocco, Pakistan, Paris, Rome, Sudan, and Yemen. 

9
  Any system of records developed or modified to track personally identifiable information should comply 

with the Privacy Act’s publication requirement at 5 U.S.C. 552a(e)(4) and any other legal requirements.



                                                                                                       5
Historically, many evacuations have occurred in the Middle East. Because frequent staff
rotations can limit institutional memory at USAID missions, a continuity of operations plan with
readily available personally identifiable information about mission employees, essential
processes, and the requisite staffing needs is very important. Without a systematic process to
document time-sensitive emergency data in advance and to identify what must be done to
ensure continuity of operations, USAID/Egypt limits its preparedness and responsiveness during
emergencies. Consequently, the audit makes the following recommendations.

     Recommendation 1. We recommend that USAID/Egypt develop and implement an
     internal control to update consolidated personally identifiable information for employees
     and dependents as needed, and submit it to the appropriate Embassy personnel.

     Recommendation 2. We recommend that USAID/Egypt identify and document
     essential functions and activities, and the minimum resources needed to perform critical
     operations during emergencies.

USAID/Egypt Did Not Correctly
Calculate and Pay Some
Evacuation Benefits
DSSR, Chapter 600, “Payments During an Ordered/Authorized Departure,” authorizes certain
U.S. Government agencies operating in foreign areas to pay employees and their dependents
several benefits in the event of an evacuation from their posts. Some of the authorized
evacuation benefits are included in DSSR 631, “Travel Expense Allowances,” which governs
locality per diem from a date of departure to a date of arrival at an official safe haven; DSSR
632, “Subsistence Expense Allowances,” which governs locality per diem for up to 180 days
from the date following arrival at an authorized safe haven; and DSSR 631 (b), “Household
Effects, Privately Owned Vehicle and Transportation Allowance,” which limits shipments of
privately owned vehicles and reimbursements for transportation expenses. Appendix III
summarizes further details of these entitlements.

USAID/Egypt’s OFM paid unallowable costs of $4,17510 and did not pay $1,111 in allowable
expenses. These questioned costs were identified in 17 of 144 reimbursement requests
submitted by 15 of the 41 U.S. employees. For example, this audit found that OFM reimbursed
an employee $1,455 over the allowable lodging amount because the employee claimed lodging
at a special family composition rate to which the employee was not entitled. In the second case,
the mission reimbursed an employee staying in the District of Columbia metropolitan area for
lodging at a rate of $209 to $229 per night plus taxes when the maximum was $181 per night
plus taxes; OFM paid this employee $668 more than the maximum allowable lodging amount.
In two other cases, OFM paid two employees unallowable costs totaling $722 in evacuation
benefits for meals and incidental expenses (M&IE) and for transportation because the
employees did not report directly to Washington, D.C., the official safe haven location for all
USAID employees. In a third case, although an employee reported to Washington, the
employee left to work remotely in New York State. According to USAID/Egypt’s former deputy
mission director, this employee worked for the mission remotely without an approved
telecommuting arrangement. Consequently, OFM paid the employee $994 in unallowable costs
for M&IE. In another case, because of an oversight, OFM inadvertently did not pay an

10
   Additionally, the “Audit of Selected Payments by USAID/Egypt for Evacuation Travel and Related
Allowances” (Report No. 6-263-12-001-P, December 13, 2011) identified $5,112 in unallowable costs.

                                                                                                 6
employee $410 for 1 day of evacuation benefits that included lodging, M&IE, and transportation
allowances.

Mission officials gave several reasons for the unallowable payments. First, mission officials said
the regulations were complicated and not always clear. Voucher examiners and certifying
officers who reviewed and approved the employees’ reimbursement requests lacked any
institutional knowledge about the application of the regulations. Second, in addition to the
internal controls established for reviewing reimbursement requests, the Executive Office and
OFM formed a focus group to discuss the ambiguities of the evacuation regulations and areas in
which management could use its discretion in interpreting the guidance. As part of this process,
the former controller clarified and approved many of the lodging issues identified to
accommodate employees and their dependents during the evacuation to the United States.
Third, local employees living in Cairo and surrounding cities indicated that they were personally
affected by the unpredictable security situation during the revolution, and that adversely affected
their job performance. Consequently, errors in reviewing and approving reimbursements
requests occurred.

Although an unscheduled evacuation is stressful, financial management officials are stewards of
government funds and are responsible for ensuring that payments are correct and paid in
accordance with established regulations.          Although the value of the unallowable
reimbursements or miscalculations would not necessarily be material to the Agency’s financial
statement, evacuation payments have a high inherent risk given the infrequency of evacuations.
Consequently, the audit makes the following recommendations.

     Recommendation 3. We recommend that USAID/Egypt determine the allowability of
     questioned costs valued at $4,175 and nonpayment of $1,111, and recover from or remit
     to the employees amounts as deemed appropriate.

     Recommendation 4. We recommend that USAID/Egypt provide and document training
     to financial management employees about regulations governing evacuation entitlements.

USAID/Egypt Did Not Approve
a Telecommuting Arrangement
Properly
Telecommuting is a flexible work arrangement that allows an employee to perform authorized
duties and responsibilities from an approved worksite other than the location from which the
employee would usually work.            USAID’s Automated Directives System (ADS) 405,
“Telecommuting,”11 requires supervisors to approve an employee’s individual request to
telecommute. Supervisors must have a clear understanding and agreement about the
employee’s alternative workplace, work days and hours, and the work to be performed. During
the evacuation, as indicated on the official DoS evacuation order, U.S. employees were required
to report to USAID headquarters in Washington, D.C.




11
  ADS 405, “Telecommuting,” was superseded by ADS 405, “Telework,” revised May 2011. However,
ADS 405, “Telecommuting,” was the effective policy during the audit period.

                                                                                                 7
As a basis for approving an employee’s time and attendance information, GAO published
Maintaining Effective Control over Employee Time and Attendance Reporting”12 According to
Part I, “Alternative Workspace Arrangements,” supervisors are required to obtain reasonable
assurance that employees working at remote sites are working when scheduled, and that time
and attendance information is accurate.

An employee claimed, and the time and attendance certifying officer approved, 88 hours of
regular duty time in USAID’s official time and attendance system for hours worked remotely in
New York State from February 4 to 28, 2011. However, the former deputy mission director, as
the employee’s immediate supervisor, did not approve a telecommuting arrangement, and the
employee was not entitled to certain evacuation benefits while living in New York State, as
discussed on page 6 of this report.

The employee planned to resign from USAID and begin employment with an organization in
New York State. USAID/Egypt’s Executive Office signed a separation travel authorization for
travel to the United States for this employee and dependents effective February 12, 2011.
However, the executive officer approved the employee’s request to stay on the payroll from
February 12 to 28, 2011, to help the staff member assigned to replace the employee.

One of USAID/Egypt’s certifying officers notified the resigning employee via e-mail that all
USAID employees are reimbursed for subsistence expenses based on the Washington, D.C.,
rate and requested that the employee provide documents to support payment for a different
location. However, the employee told the officer that USAID/Egypt’s executive officer and a
USAID/Washington human resources specialist decided that because of the pending agency
separation, it did not make sense to continue working in Washington, D.C.

None of the USAID/Egypt officials provided the audit team with a valid reason for the lack of an
approved telecommuting arrangement. From Egypt, the executive officer communicated with
the telecommuting employee during this time but was not aware that the employee was working
remotely. In addition, the employee’s successor stated that the employee worked throughout
the period by telephone and Internet, and that the employee’s knowledge of USAID’s programs
was invaluable. USAID/Egypt’s former deputy mission director, who also remained in Egypt
during the evacuation, certified the employee’s time and attendance records but commented
that no telecommuting arrangement had been approved. The former deputy mission director
also had no communication with the employee after the employee evacuated from Egypt on
January 31, 2011.

Although USAID supports and encourages telecommuting arrangements, a supervisor must
approve these alternative work arrangements and properly account for an employee’s
productivity while working remotely. As a certifying official for an employee’s time and
attendance record, the supervisor is inherently responsible for ensuring the accuracy of these
records. Accordingly, the audit makes the following recommendation.

     Recommendation 5. We recommend that USAID/Egypt review and document the work
     produced by the employee for the 88 hours of regular duty claimed, determine the
     allowability of payments made, and collect any overpayments.



12
  GAO Report 03-352G, “Maintaining Effective Control over Employee Time and Attendance Reporting,”
January 2003.

                                                                                                 8
USAID/Egypt Did Not Pay
Advances Appropriately
According to DSSR 615, “Advance Payments,” an employee may be paid in advance of a
normal payday when, in the opinion of the authorizing officer, payment is required to help defray
immediate expenses due to the evacuation of an employee or dependents or both. In addition,
according to DSSR 617, “Amount of Advance Payment,” the advance payment shall be based
on the rate of compensation including any allowances or post differential to which an employee
was entitled immediately before the issuance of the evacuation order. The total advance
payment to an employee may not exceed 30 days of the employee’s rate of compensation
including any allowances or post differential to which an employee was entitled immediately
prior to the issuance of the evacuation order. DSSR 617.2 (b) includes guidance that allows
officials to provide an advance payment within 30 days of the evacuation order. According to
DSSR 642, “Approval Procedures,” an agency may deviate from the regulation but must receive
prior approval from the Secretary of State before implementation.

In an e-mail sent February 9, 2011, USAID/Egypt’s OFM officials instructed employees to
request advance payments for lodging only and did not mention an expiration date for requests.
On April 11, 2011, one employee requested an advance of $3,156 for M&IE and transportation
allowances, as shown in the following table.

USAID/Egypt’s OFM made eight advance payments to employees totaling $42,281 to finance
immediate evacuation expenses. However, it paid seven of them after March 2, 2011, more
than 30 days after the authorized evacuation on January 30, 2011, and did not get DoS
approval, as required. Furthermore, USAID/Egypt provided advance payments to one
employee that exceeded the allowable limit by $8,074. The table below shows the advance
payments made.




                                                                                               9
                        Advance Payments to Employees (audited)
                                                       Amount      Payment
     Employee’s
                   Advance     Advance     Total by   Exceeding    Provided
        Audit                                                                 Reason for
                   Payment     Amount     Employee    Allowable     before
     Identifying                                                               Advance
                     Date        ($)         ($)       Amount      March 2,
       Number
                                                          ($)        2011
          17       3/25/2011     7,689                                No      Lodging
                                      *
          17       4/13/2011    10,327                                No      Lodging
          17       5/11/2011     2,177     20,193       8,074         No      Lodging
           4       2/14/2011     5,430                               Yes      Lodging
           4       3/16/2011     5,430                                No      Lodging
           4        4/6/2011     5,430     16,290         n/a         No      Lodging
                                                                              M&IE and
          11        5/3/2011     3,156      3,156         n/a         No      Travel
                                                                              Allowances
           6        4/1/2011     2,642      2,642         n/a         No      Lodging
                     Total      42,281     42,281       8,074
    * Advance payment was also tested as part of the “Audit of Selected Payments by
    USAID/Egypt for Evacuation Travel and Related Allowances” (Report No. 6-263-12-001-P),
    December 13, 2011.

According to a financial management officer, USAID/Egypt made a management decision to
provide employees with advance payments for lodging because of the unplanned displacement
and the financial burden of paying lodging expenses before the mission could process and
reimburse allowable costs. In addition, the voucher examiners and certifying officers
responsible for reviewing and approving payments stated that they were not aware that the
advance payments were allowable only for a specific time because these decisions were made
by the former mission controller. The financial management officer did not offer an explanation
for providing advance payments for M&IE and transportation expenses that should not have
been paid and that were not mentioned in the mission’s February 9, 2011, e-mail to employees.

Although advance payments were important to assist employees and dependents with
immediate, unplanned expenses incurred because of the evacuation, USAID/Egypt must follow
regulations and seek the appropriate approval to deviate from requirements. Since adhering to
this regulation helps prevent misappropriation of government funds and provide some protection
to the Agency against fraud, waste, and abuse, the audit makes the following recommendations.

   Recommendation 6. We recommend that USAID/Egypt develop, document, and
   implement mission procedures for obtaining appropriate approvals for any deviations
   from U.S. federal regulations regarding advances for evacuation travel.

   Recommendation 7. We recommend that USAID/Egypt document the availability of
   advances for U.S. direct-hire staff during evacuations in the mission’s procedures on
   financial management advances and accounts payable.




                                                                                             10
USAID/Egypt Employees Did Not
Use the Required Government
Travel Card
USAID’s ADS 633.3.3, “Government-Sponsored Travel Card,” states that Public Law 105–264,
dated October 19, 1998, requires the mandatory use of government-sponsored travel cards for
official government travel by employees. All U.S. direct-hire employees and personal service
contractors who travel on official Agency business must have a travel card and are required to
use it to pay for authorized travel expenses, including lodging and meals. As stated in the
guidance, when requesting reimbursement for expenses, if a traveler did not use the card for
travel-related expenses, the traveler must explain why in the comments section of the
associated request for reimbursement.

Section 7 of USAID’s Request and Authorization of Official Travel (Travel Authorization Form),
document number AID 5-8, includes a section for an itinerary, the purpose of travel, any
authorizations, and special notes providing the basis for specific travel entitlements and
requirements that USAID officials can use. In the event that employees do not follow the
regulations, such as ADS 633.3.3, “Government-Sponsored Travel Card,” officials may assess a
penalty for offenses. As authorized by ADS 487, “Disciplinary and Adverse Actions Based Upon
Employee Misconduct – Civil Service” dated November 6, 2009, the Table of Offenses and
Penalties lists some commonly identified offenses and provides some guidance on what
penalties apply for violations of administrative regulations. It also includes a section on
miscellaneous offenses that do not require penalties.

At least nine13 USAID/Egypt employees did not use their government-issued travel card for
authorized travel expenses while on evacuation status. Instead, they used personal credit cards
to pay expenses for lodging and other expenses. Further, at least one of the nine employees
who received a cash advance to pay for lodging still used a personal credit card. None of the
nine employees annotated their reimbursement requests, as required, to explain why they did
not use the travel card.

USAID/Egypt’s Executive Office did not include on the travel authorization form the requirement
to use the government-sponsored credit card, and employees provided various reasons for not
using their cards. One said that during the chaos of the situation, the card was left inadvertently
at the office in Egypt, and others said they forgot to use their cards. In one case, an employee
who left the travel card in Egypt did not ask for a replacement because neither DoS regulations
nor USAID/Egypt’s Executive Office’s evacuation travel authorization stated that a travel card
was required for evacuation travel expenses. In two cases, the employees did not have active
travel cards.

Although some employees may have left travel cards in Egypt or may not have had them at the
time of the evacuation, employees had the option of contacting the Financial Policy and Support
Division for a replacement travel card to use to charge allowable evacuation expenses.
According to division staff members, an employee could have received a replacement card in
the Washington, D.C., area within 3 to 4 business days.

Not using the required travel card not only violates USAID’s policy, but also reduces the rebate

13
  “Audit of Selected Payments by USAID/Egypt for Evacuation Travel and Related Allowances” (Report
No. 6-263-12-001-P, December 13, 2011) identified another exception.

                                                                                                11
USAID receives from the supplier of the card. In response to a previous Office of Inspector
General recommendation, USAID/Egypt’s Executive Office issued a mission wide reminder on
August 18, 2011, to remind staff of their obligation to use the travel card. Since USAID/Egypt
could take additional steps to ensure that employees understand this, the audit makes the
following recommendations.

     Recommendation 8. We recommend that USAID/Egypt include the requirement for the
     use of the government-sponsored travel card in Section 7 of the AID 5-8 Travel
     Authorization Form to remind employees of their financial management responsibilities.

     Recommendation 9. We recommend that USAID/Egypt issue a written reminder to all
     employees about the possible penalties for not following the guidelines requiring the use
     of the government-sponsored travel card.

     Recommendation 10. We recommend that USAID/Egypt determine the type of
     offense, administer the appropriate penalty, and document it in the appropriate mission
     or personnel file, if warranted.

USAID/Egypt Did Not Require
Adequate Documentation for
Some Reimbursement Requests
According to ADS 630, “Payables Management,” Section 630.3.10.2, “Voucher Examiner
Responsibilities,” voucher examiners are required to review and process reimbursement
requests submitted to USAID for payment. As part of the review process, the voucher examiner
must verify that a valid obligation exists and that the supporting documentation provided is
appropriate. In addition, ADS 630.2.f, “Certifying Officers,” requires certifying officers to ensure
the payment is legal and in accordance with the purpose of the appropriation. Further, ADS
596, “Management’s Responsibility for Internal Control,” provides guidelines on control activities
that include properly executing transactions and events, recording transactions accurately and
timely and appropriate documentation of transactions and internal controls. Accordingly,
documents such as flight itineraries and travel authorizations are important travel documents
that financial management officials can use to verify information.

USAID/Egypt processed 16 reimbursement requests for 15 employees that did not include
adequate supporting documentation—specifically, a copy of the evacuee’s flight itinerary or
boarding passes and/or their travel authorizations. Although 13 of 16 reimbursement requests
lacked a flight itinerary or boarding pass, this did not significantly impact the amount reimbursed
for air travel. The flight itinerary or boarding pass provides verifying information on the
evacuee’s date of arrival to a safe haven, and the safe haven location that officials use, in part,
as a start date for evacuation benefits to begin.

Four14 USAID/Egypt employees did not include their travel authorizations with reimbursement
requests as required.      Financial management officials processed approximately 144
reimbursement requests, or about 3 requests per employee, during the 3 months that most
employees were evacuated. In some instances, an employee may not have submitted a travel
authorization with subsequent reimbursement requests.

14
    Additionally, the “Audit of Selected Payments by USAID/Egypt for Evacuation Travel and Related
Allowances” (Report No. 6-263-12-001-P, dated December 13, 2011) identified nine exceptions.

                                                                                                 12
According to the voucher examiners, although the employees did not include their flight
itineraries, this information was obtained through e-mail correspondence. However, the
examiners said that because they focused on processing the reimbursement requests
accurately and in a timely manner, they inadvertently did not upload the documents into the
mission’s electronic filing system. In some cases, the voucher examiners did not require
employees to submit travel authorizations after the first reimbursement request was processed
and approved because the employees had submitted the authorization with prior reimbursement
requests.

Although not a part of the official financial management review process at USAID/Egypt, the
mission’s Executive Office required all evacuated mission staff to submit their reimbursement
requests to the Executive Office staff for review. According to the executive officer, this
requirement was necessary since financial management staff and other mission staff members
were not familiar with DoS regulations on evacuation entitlements. A financial management
officer said that since the executive office administratively approved the reimbursement
requests, the voucher examiners did not need to obtain the employees’ flight itineraries.

The travel authorization validates that the payment is legal and in accordance with the purpose
of the appropriation being charged for a certifying officer’s review. Because the electronic filing
system is the mission’s filing depository for financial records, it is important that management
maintain all financial documents and have them readily available for verification, authentication,
and review. Accordingly, this audit makes the following recommendations.

   Recommendation 11. We recommend that USAID/Egypt provide and document
   training to financial management employees regarding the appropriate supporting
   documents for financial transactions required to be retained in the mission’s electronic
   filing depository.

   Recommendation 12. We recommend that USAID/Egypt develop a checklist of
   relevant documents that financial management employees can use to verify the
   completeness of a travel voucher package before processing employee reimbursements.

USAID/Egypt Did Not Obtain
Invoices for Intragovernmental
Transactions
Intragovernmental transactions are financial activities such as payments, collections, or
adjustments for goods and services occurring within or between federal agencies. To help
agencies account for and reconcile the financial transactions, the U.S. Department of the
Treasury published the Federal Intragovernmental Transactions Accounting Policies Guide.
Section 7, “Agencies’ Responsibilities,” outlines several activities for each agency involved in a
financial transaction. One of the Agency’s responsibilities is to document and support the
information recorded in its accounting records related to intragovernmental transactions. In
addition, ADS 596, “Management’s Responsibility for Internal Control,” provides guidelines on
control activities that include proper execution of transactions and events, accurate and timely
recording of transactions, and appropriate documentation of transactions and internal controls.

DoS was responsible for evacuating federal agency employees and dependents and private
U.S. citizens during the unrest in Egypt. As a part of the costs incurred during the evacuation,

                                                                                                13
USAID was authorized to reimburse DoS for the air transport services to safe haven locations.
As a result, USAID/Egypt incurred the costs as intragovernmental transactions valued at
$81,813. Although DoS provided services and billed the mission, USAID/Egypt did not obtain
the vendor receipts or invoices as support documentation for nine intragovernmental
transactions valued at $24,658. To support the bills for these transactions, the mission provided
a DoS report titled Regional Financial Management System – Disbursing, which contained a
description of each charge, the amount, and the travel authorization number assigned by
USAID/Egypt. However, a receipt showing the employee’s name and charges incurred for the
service was not included in the supporting documents.

Moreover, because of errors valued at $23,270 in an intragovernmental payment that DoS
made on behalf of USAID/Egypt in May 2011, the mission requested additional supporting
documents that included the vendor receipts. Although the USAID/Egypt Executive Office had
provided DoS with a list of employee names and the obligation numbers, DoS mistakenly placed
several employees’ charges on a single travel authorization. After the mission reviewed the
vendor receipts that included the employee’s name and service costs, USAID/Egypt allocated
$17,710 of the $23,270 to nine different travel authorizations. However, the mission did not
obtain a vendor receipt for the remaining $5,559 in charges incurred on behalf of USAID/Egypt.

According to USAID/Egypt’s chief accountant, the mission is not required to obtain or maintain
supporting documentation for these transactions except to recognize which obligation to charge.
Further, according to the chief accountant, the mission usually asks for additional supporting
documentation when the amount charged to a travel authorization exceeds the amount
obligated for the travel authorization in the mission’s accounting system.

USAID/Egypt is an independent organization with a responsibility to get and maintain sufficient
documentation to support all financial transactions. A mission’s due diligence in reviewing and
researching questionable data, which results in correcting entries, illustrates the importance of
obtaining sufficient documentation for all financial transactions. Financial officials have a
fiduciary responsibility to U.S. taxpayers to account for government funds. Consequently, this
audit makes the following recommendation.

   Recommendation 13. We recommend that USAID/Egypt revise and implement its
   intragovernmental transactions recording procedures to require financial management
   employees to obtain, review, and maintain supporting documentation for all
   intragovernmental transactions.

USAID/Egypt Employee Used the
U.S. Military Postal Service
Inappropriately
DSSR 631, “Travel Expense Allowances,” gives evacuees an air freight allowance, referred to
as unaccompanied air baggage (UAB), when traveling between assigned posts. Evacuees are
permitted an air freight allowance starting at 250 pounds with additional weight permitted based
on the evacuee’s family size. Accordingly, 14 Foreign Affairs Manual 742.4-1.c and 14 Foreign
Affairs Manual 751.3.b state that an employee (or anyone acting on employee’s behalf) may not
use a Military Postal Service or the diplomatic post office to ship any UAB to a post abroad.
Rather, UAB should be transported using contracted commercial shipping companies.
Moreover, although ADS 522.5.2, “Travel Authorizations,” does not have specific language
regarding the use of the Military Postal Services, in Section 7 of USAID’s Request and

                                                                                              14
Authorization of Official Travel (Travel Authorization Form), document number AID 5-8, a
section exists to document an itinerary, the purpose of travel, any authorizations, and special
notes.

Despite the prohibition on the use of the Military Postal Service for UAB, one senior mission
employee claimed and was paid $47 for shipping costs incurred when mailing items from
another USAID mission to USAID/Egypt in lieu of appropriately shipping the UAB using an
authorized shipper. Inappropriate use of the Military Postal Service for shipping UAB was noted
also in another audit, and USAID/Egypt paid the shipping costs claimed by the employee.15
Although payment of the $47 claim was not authorized, USAID officials justified this cost by
noting that the Military Postal Service was used because it saved the mission money.

The use of the Military Postal Service by USAID personnel is a privilege and not a right. It is
USAID/Egypt’s responsibility to ensure that its employees do not abuse their Military Postal
Service privileges and use them in a way that is consistent with the established policies and
agreements. Accordingly, this audit makes the following recommendation.

     Recommendation 14. We recommend that USAID/Egypt include guidance regarding
     the prohibited use of the U.S. Military Postal Service for unaccompanied baggage in
     Section 7 of the AID 5-8 Travel Authorization Form, when warranted.

USAID/Egypt Did Not Ensure
Timely Submission of
Reimbursement Requests
Several USAID regulations address travel and related expenses. ADS 522.5.2, “Travel
Authorizations,” requires an employee to submit a reimbursement request within 5 business
days after completing travel. ADS 633.3.5, “Travel Voucher Processing Requirements,”
requires employees to submit a reimbursement request within 5 business days after completing
travel when travelers arrive at their post or every 30 calendar days during extended travel.
Section 7 of USAID’s Request and Authorization of Official Travel, document number AID 5-8,
includes a section for special notes, providing the basis for specific travel entitlements and
requirements that USAID officials can use.

On some travel authorizations,16 USAID/Egypt’s Executive Office requires travelers to submit a
reimbursement request within 5 business days following travel completion. However, more than
4 months after the evacuation was lifted on April 29, 2011, two USAID/Egypt office directors had
not submitted reimbursement requests for expenses incurred by their dependents during the
last 30 days of the evacuation. In both cases, the employees returned to post before the end of
the evacuation, and their dependents remained at designated safe havens until DoS lifted the
evacuation. One employee received an advance of $3,156 in May 2011, as discussed on page
9 of this report. However, the employee did not complete and provide a reimbursement request
to the OFM for processing until September 2011, during this audit.

Both employees said they had not submitted their reimbursement requests to the OFM within 5

15
   USAID/Egypt paid an employee $207 for Military Postal Service shipping costs as documented in

USAID/Egypt’s FY 2011 GMRA audit. In response to the GMRA audit, USAID/Egypt indicated that a 

notice of collection would be issued to the employee.

16
   These include authorizations for rest and recuperation and home leave. 


                                                                                             15
days after their dependents’ travel was completed because of other workload demands or a
personal oversight. Through their regular review of unliquidated advances, USAID/Egypt
financial management officials noticed that the employee who received the advance had not
submitted a reimbursement request and asked that employee to do so. However, they did not
follow up on the second outstanding reimbursement request until responding to the audit‘s
inquiries. OFM officials did not respond to requests for information on what steps they have
taken to ensure evacuation reimbursement requests are submitted on time.

To ensure unspent travel funds can be reallocated to other mission priorities, USAID/Egypt must
ensure that its employees submit reimbursement requests in a timely manner. When a request
is needed to liquidate a travel advance, timely submissions become more important so that the
mission can accurately account for its funds and use limited financial resources properly.
Accordingly, this audit makes the following recommendations.

   Recommendation 15. We recommend that USAID/Egypt periodically remind all
   travelers that they must file a travel voucher within 5 business days of completion of
   travel or every 30 calendar days during extended travel.

   Recommendation 16. We recommend that USAID/Egypt include the requirement to
   submit a travel reimbursement request within 5 business days after travel completion in
   Section 7 of the AID 5-8 Travel Authorization Form to remind employees of their financial
   management responsibilities.




                                                                                               16
EVALUATION OF MANAGEMENT
COMMENTS
In response to the draft report, USAID/Egypt officials agreed with eight recommendations,
partially agreed with one, and disagreed with the remaining seven. On the basis of our
evaluation of USAID/Egypt’s management comments, management decisions have been
reached on Recommendations 2, 4, 5, 6, 11, 12, and 15. No management decisions have been
reached on Recommendations 1, 3, 7, 8, 9, 10, 13, 14, and 16. In addition, USAID/Egypt took
final action on Recommendations 2, 5, and 15.

Recommendation 1. USAID/Egypt did not make a management decision to develop any
management controls to ensure employee and dependent data is updated with changes
communicated to the appropriate Embassy personnel. Although mission officials agreed that
the information was critical, they did not agree to implement any internal control activities to
update or verify personnel and dependent data more frequently than quarterly or in response to
U. S. Embassy Cairo requests. Therefore, no management decision has been reached on this
recommendation.

Recommendation 2. USAID/Egypt agreed to undertake an after-action review to identify
administrative, financial management, program, procurement, and some technical support
needed to operate during an ordered departure by April 30, 2012. After submitting its
comments on January 16, USAID/Egypt took corrective action. Consequently, final action has
been taken on this recommendation.

Recommendation 3. Mission officials agreed to determine the allowability of questioned costs
valued at $4,175 and nonpayment of $1,111 that officials will need to recover from or remit to
employees by April 30, 2012. However, until USAID/Egypt identifies the amounts to be
recovered or remitted, a management decision has not been reached on this recommendation.

Recommendation 4. USAID/Egypt plans to conduct training on evacuation benefits by April 30,
2012. Accordingly, a management decision has been reached on this recommendation.

Recommendation 5. Mission officials formed a review board to analyze the employee’s work
and to determine the allowability of payments made for 88 hours of regular duty claimed after
the evacuation and before the employee separated from USAID. After receiving the review
board’s analysis, USAID/Egypt decided not to collect overpayments from the former employee.
Based on RIG/Cairo’s review of documents provided to show that the employee performed work
during this period, final action has been taken on this recommendation.

Recommendation 6. USAID/Egypt agreed to update its internal accounts payable procedures
to clarify that any deviation from the governing regulation can be made based only on the
procedures contained in the regulation or other relevant guidance by April 30, 2012.
Accordingly, a management decision has been reached on the recommendation.

Recommendation 7. USAID/Egypt partially agreed to document advances available to U. S.
direct-hire staff during evacuations in the mission’s procedures on financial management
advances and accounts payable. The mission plans to update its accounts payable procedures

                                                                                             17
to refer to the applicable Federal Travel Regulation on travel advances. However, USAID/Egypt
did not indicate plans to incorporate in its procedures the requirements of DSSR 615 and 617,
governing advances to U.S. direct-hire employees during an evacuation. Accordingly, a
management decision has not been reached on this recommendation.

Recommendation 8. USAID/Egypt did not agree to include in Section 7 of the AID 5-8 travel
authorization form the requirement for the use of government-sponsored travel cards. While
officials acknowledged the importance of reminding mission staff to use the cards, officials did
not agree with the specific recommendation. Instead, officials plan to issue a summary after-
action review as a mission notice that will include this issue. While such a notice can remind
current staff of the requirement, it may not work since USAID’s mobile workforce frequently
transfers in and out of missions worldwide and may require a more permanent reminder.

Section 7 of the AID 5-8 travel authorization takes on increased significance during an
evacuation. While in an evacuation status, it is not unusual for employees to focus on their
fundamental physiological and security needs and those of their family members. Including
USAID financial management requirements on the use of the government-sponsored travel card
on the evacuation travel authorization would help eliminate confusion about its required use for
travel expenses. Consequently, a management decision has not been reached on this
recommendation.

Recommendation 9. USAID/Egypt did not agree to issue a reminder to all employees about the
possible penalties for not using the government-sponsored travel card because officials believe
that the application of any rules or penalties related to the nonuse of the card is outside their
authority. Unlike some other federal agencies, USAID’s regulation on travel card use is silent
on any penalties for nonuse. However, it is well within the authority of USAID/Egypt officials to,
at a minimum, publicize the range of disciplinary actions available to supervisors to correct
unacceptable conduct; actions range from oral admonishment or discussions about the
expected use of the card to more severe actions such as suspension or separation for cause.
RIG/Cairo believes that publicizing the possible penalties for not following the guidelines would
decrease the possibility that employees would ignore the rules. Consequently, a management
decision has not been reached on this recommendation.

Recommendation 10. USAID/Egypt did not agree to determine the type of offense constituted
by the nonuse of the government-sponsored travel card, administer the appropriate penalty, and
document it in the appropriate mission personnel file, as warranted. USAID/Egypt supervisors
may initiate disciplinary action, when warranted, against all employees regardless of their
classification system—Foreign Service or other. Moreover mission supervisors also have the
authority to admonish a Foreign Service employee orally as a disciplinary action. Disciplinary
actions should be consistent and equitable for comparable actions in comparable cases based
on the severity and recurring nature of an infraction. RIG/Cairo would expect that any
disciplinary action other than oral admonition would be in consultation and agreement with
cognizant USAID officials responsible for human resources or employee and labor relations
oversight.     Consequently, a management decision has not been reached on this
recommendation.

Recommendation 11. USAID/Egypt, which is implementing a paperless payment process,
agreed to train its financial management employees in maintaining electronic records to support
financial transactions by April 30, 2012. Officials expect that the mission will be able to retain
entire voucher packages in its electronic filing depository. Therefore, a management decision
has been reached on this recommendation.

                                                                                               18
Recommendation 12. USAID/Egypt agreed to develop a checklist of relevant documents that
financial management employees can use to verify the completeness of a travel voucher
package before processing employee reimbursements. Financial management officials plan to
update the mission’s internal payment procedures so that voucher examiners confirm that a
valid obligation exists before submitting a travel voucher to a certifying officer. Consequently, a
management decision has been reached on the recommendation.

Recommendation 13. Mission officials did not agree to revise and implement its
intragovernmental transactions recording procedures to require financial management staff to
obtain, review, and maintain supporting documentation for this transaction type. Although
mission officials solicited feedback on a proposed solution from the Office of the Chief Financial
Officer, they did not receive a response. Consequently, a management decision has not been
made.

Recommendation 14. USAID/Egypt did not agree to include guidance in Section 7 of the AID
5-8 Travel Authorization Form prohibiting use of the U. S. Military Postal Service for
unaccompanied baggage. Although mission officials agreed with the finding, they disagreed
with the specific remedy included in the recommendation. The mission plans to publish a
mission notice on the matter and to reissue the notice in the event of any future evacuation.
Officials said it is inappropriate and redundant to emphasize some regulations in a travel
authorization while ignoring others. However, this audit demonstrates that an employee did not
abide by policy, procedures, and rules documented elsewhere in voluminous regulations and
guidance. Therefore, a management decision has not been reached on the recommendation.

Recommendation 15. USAID/Egypt agreed to remind travelers that they must file a travel
voucher within 5 business days of completing travel or every 30 calendar days during extended
travel. After submitting management comments on January 16, USAID/Egypt took corrective
action. Accordingly, final action has been taken on this recommendation.

Recommendation 16. USAID/Egypt did not agree to include in Section 7 of the AID 5-8 Travel
Authorization Form the requirement to submit a travel reimbursement request within 5 business
days after travel completion. Although they recognize the importance of reminding employees
that vouchers should be submitted as soon as practical, and within 5 days after travel, mission
officials disagreed with the specific remedy included in the recommendation. To address this
recommendation, the mission plans to issue a summary after-action review as a mission notice
that will cover this requirement. RIG/Cairo believes, however, that including this financial
responsibility in Section 7 of the Travel Authorization Form will ensure that unspent travel funds
are reallocated to other mission priorities. Therefore, a management decision has not been
reached on the recommendation.




                                                                                                19
                                                                                      Appendix I



SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objectives.
RIG/Cairo believes that the evidence obtained provides that reasonable basis.

The audit objectives were to determine whether USAID/Egypt has plans and procedures to
prepare for emergencies and whether USAID/Egypt paid allowable, reasonable evacuation
benefits. RIG/Cairo added this audit to its FY 2011 audit plan after identifying anomalies with
some reimbursement claims during USAID/Egypt’s FY 2011 GMRA audit and the “Audit of
Selected Payments by USAID/Egypt for Evacuation Travel and Related Allowances.” This audit
used the planning work conducted under the GMRA audit. As part of that, the audit team
obtained an understanding of management internal controls over disbursements; assessed and
tested the operating effectiveness of controls over disbursements; and reviewed the mission's
FY 2011 Federal Managers’ Financial Integrity Act assessment. For this audit, we assessed
whether the mission’s plans and procedures to ensure the continuity of operations in the event
of an emergency complied with applicable regulations. Moreover, the audit team reviewed
documentation for reimbursement requests to validate that the mission calculated and paid
evacuation benefits in accordance with the DSSR, Chapter 600, “Payments During an
Ordered/Authorized Departure,” and to test the effectiveness of management’s internal controls
over these payments. These control activities include (1) reviews by management, (2) controls
over the processing of information, (3) proper execution of transactions and events, (4) accurate
and timely recording of transactions, and (5) appropriate documentation.

The audit team conducted fieldwork at USAID/Egypt in Cairo from September 6, 2011, to
November 3, 2011. During that time, we reviewed the mission’s inventory of plans and
procedures to ensure continuity of operations and tested evacuation benefit payments
disbursed from January 30 to June 30, 2011. As of June 30, 2011, USAID/Egypt’s OFM had
processed 171 evacuation payments totaling approximately $962,400.17 The audit team tested
144 evacuation payment transactions valued at $622,989 that were processed and paid directly
to an employee or through intragovernmental transactions to DoS. This total includes three
evacuation benefit payments totaling $44,121 that were reviewed under the “Audit of Selected
Payments by USAID/Egypt for Evacuation Travel and Related Allowances,” which tested
30 evacuation payments valued at $386,485.

Methodology
To answer the audit objectives, the audit team interviewed employees from USAID/Egypt's OFM
and Executive Office, assessed the mission’s emergency plans and procedures against
applicable regulations, and reviewed reimbursement requests and supporting documents stored
on the mission’s electronic documentation filing system. The team also obtained an

17
  In addition, USAID/Egypt processed 52 reimbursement requests and paid $222,600 in evacuation
benefits to RIG/Cairo staff. This amount was excluded from the audit.

                                                                                              20
                                                                                      Appendix I


understanding of several applicable regulations and USAID policies and procedures.
Specifically, the audit team reviewed the following regulations and policies:

DoS Cable 009570 – “Upgrade from Authorized to Ordered Departure from Post”

DoS Cable 040818 – “Return of Evacuees to Post”

DSSR, Chapter 600, “Payments During an Ordered/Authorized Departure”

USAID/Egypt’s accounts payable and advances procedures

USAID ADS, Chapter 596, “Management’s Responsibility for Internal Control”

USAID ADS, Chapter 630, “Payables Management”

USAID ADS, Chapter 633, “Financial Management Aspects of Temporary Duty (TDY) Travel”

U.S. Department of Treasury, Federal Intragovernmental Transactions Accounting Policies
Guide

DoS Foreign Affairs Manual, Volume 14, Logistics Management

To determine whether the mission had plans and procedures in place to ensure continuity of
operations in the event of an emergency, we assessed whether the mission’s policies and
procedures complied with several regulations. These regulations and policies included the
Federal Continuity Directive 1, “Federal Executive Branch National Continuity Program and
Requirements,” published by the Department of Homeland Security, February 2008; Federal
Preparedness Circular 65, published by the Department of Homeland Security, June 2004; ADS
Chapter 530, “Emergency Planning Overseas,” and ADS Chapter 106, “Delegation of Authority
and Orders of Succession During a National Security Emergency.”

To assess the allowability and reasonableness of the reimbursement requests, RIG/Cairo
examined supporting documentation to verify that a valid travel authorization existed, supporting
receipts were submitted with the reimbursement requests, requests were properly calculated
and approved by the authorized mission officials, and benefits paid were calculated in
accordance with appropriate regulatory guidelines.




                                                                                              21
                                                                             APPENDIX II 




MANAGEMENT COMMENTS 


                                                                        16 January 2012

Memorandum

To:	         Jacqueline Bell, RIG/Cairo

From: 	      Walter North, Mission Director, USAID/Egypt /s/

Subject:	    Management Comments to RIG/Cairo Audit of USAID/Egypt’s Emergency
             Preparedness and Evacuation Travel Payments

I appreciate the Regional Inspector General’s (RIG) review of the 2011 Egypt
evacuation. The evacuation was a disruptive event. Management is pleased that no
material weaknesses have been identified in this report or the two prior RIG reports on
the evacuation. The RIG reports have been useful. In the event that another
evacuation occurs the Mission will be better prepared.

We agree that many of the issues identified in this and prior reports are important.
Management does not agree with many of the specific solutions put forward in the
proposed recommendations. In those instances, we have identified alternate courses of
action that would lead to the same substantive result.

In addition, the Mission believes that several of the audit recommendations are more
appropriately addressed at the Agency level rather than at a Mission level. Many of the
recommendations address issues related to a lack of clarity in relevant regulations or
are related to Agency wide policies or practices. It would be inappropriate for a Mission
to issue rules setting procedures on such matters. Consequently, the Mission believes
that such recommendations should be directed to the Agency level and not to the
operating unit level.

Again, thank you for the care your office has given these issues. I look forward to
working with you as we achieve final actions on the issues within our management
control.

Attached are the management comments related to the RIG/Cairo’s
recommendations and suggestions.




                                                                                       22
                                                                                    Appendix II


1. Develop and implement an internal control to update consolidated personally
identifiable information for employees and dependents as needed, and submit to the
appropriate embassy personnel.

Management agrees that maintaining accurate and current records of employee and dependent
data is critical, however Management does not concur with this recommendation because the
Department of State has already established a system for maintenance of such data for all
agencies in an Embassy environment, and USAID regularly supplies its data to the Embassy
compliant with that system’s protocols.

The U.S. Embassy Egypt’s Human Resources Officer (Embassy HRO), responsible for this
personnel and dependent database for post, describes the system in place and USAID’s role in
it as follows: “The Embassy retains all mission data, including USAID data, in the
WEBPASS/Post Personnel system. There are frequent ad hoc data calls for information
regarding contractors and TDY personnel, which is also kept by the Embassy management
section since these personnel are not entered into the post personnel system. USAID responds
immediately to the data calls.

I should mention that the Post Personnel system feeds directly into the Emergency
Management System, which provides the database we use when we are preparing for
evacuation. This system takes only seconds to provide us with all of the information we need.
In fact, there is a “Pre-Evacuation” database that is already completed and is fed by Post
Personnel, so that changes are reflected instantly.”

As affirmed by the Embassy HRO, USAID follows the established protocols for quarterly update
of such personnel and dependent data in the State Department WebPASS Post Personnel
system, and responds to ad hoc data calls by the Embassy. As those data calls are ad hoc,
there can, by definition, be no systematized formula for responding to them, other than the
established good practice for USAID to keep good internal records from which to draw data for
the ad hoc reports. As such, Management concludes that the development of additional internal
controls for provision of personal data to the Department of State would be redundant.

Based on the above, Management believes a decision has been reached on this audit
recommendation. No further actions are to be made; therefore USAID/Egypt requests closure
of Audit Recommendation Number One upon report issuance.


2. Identify and document essential functions and activities, and the minimum resources
needed to perform critical operations in an emergency

Management concurs with Audit Recommendation Two. In the course of the last six months,
USAID/Egypt has conducted a series of meetings, phone calls and other discussions regarding
the 2011 evacuation with relevant USAID and Embassy staff, collectively constituting an after
action review. This after action review resulted in a document summarizing some of the of
lessons learned, as well as a listing of the essential functions and activities beyond what is
already included in the U.S. Mission-wide Emergency Action Plan (summary after action
review).

Drawdown levels are contemplated in the Emergency Action Plan (EAP), which is the document
guiding the U.S. Mission response to various types of emergencies. USAID implements several
practices which support or augment the Emergency Action Plan.

                                                                                            23
                                                                                       Appendix II



As part of USAID/Egypt’s normal management control process, the after action review was
conducted. This review was intended to look to lessons learned from the evacuation, including
some matters noted herein as recommendations or findings, and to use those lessons to
document common issues that could arise in the context of an evacuation. It is expected that
the summary action review document will be circulated to the USAID/Egypt Mission as a
Mission Notice. In addition, it is anticipated that, should another evacuation occur, this Notice
would then be provided to evacuees as supplementary information, along with the relevant
cables outlining the parameters of any such evacuation.

In summary, on this specific issue, USAID’s summary after action review will note that it can
generally be expected that USAID’s emergency response in an ordered departure situation will
require a Director, with support in administration, financial management, program, and
procurement as well as some mix of technical, program support and supervisory oversight.
Beyond that general framework, Management will maintain discretion to assess conditions
flexibly, and form the emergency team best suited to respond to the emergency situation
triggering the evacuation.

In addition to the summary after action review which will describe anticipated staffing and
resource needs, USAID/Egypt maintains a business continuity plan which pertains to continuity
of IT and FM operations in the event of an emergency or disaster, as well as a plan related to
FM operations that ensures continuity of operations in any emergency.

Based on the above, Management believes a management decision has been reached on Audit
Recommendation Number Two and will request closure of this recommendation upon final
issuance of the summary after action review document by 30 April 2012.


3. Determine the allowability of questioned costs valued at $4,175 and under-payment of
$1,111, and remit to or recover from the employee amounts as deemed appropriate.

Management concurs and will review the vouchers in question and remit or recover any
amounts as required. A final management decision will be made on or before 30 April 2012.


4. Provide and document training to financial management employees about regulations
governing evacuation entitlements.

Management concurs with this recommendation. As part of its on-going professional
development program for its accounts payable team the Office of Financial Management has
developed a training program that covers relevant topics including evacuation benefits. This in-
house training on evacuation benefits is currently scheduled to occur during the third quarter of
fiscal year 2012.

Therefore, Management believes a management decision has been reached on Audit
Recommendation Number Four and will request closure of this recommendation upon
completion of this training course by 30 April 2012.




                                                                                                24
                                                                                       Appendix II


5. Review and document the work produced by the employee for the 88 hours of regular
duty claimed, determine the allowability of payments made, and collect any
overpayments.

As part of this audit response, a review board was convened of the USAID EXO, FM and RLA to
review the documented work of the employee and determine the allowability of payments made
during the 88 hours of regular duty claimed. Regulations in the ADS stipulate that an employee
is obligated to apply for telework. As part of this review, the review board requested additional
records of the employee to better understand why no telework approval was in place. The
employee clarified that on all work days not in a leave status (including administrative leave) she
was present in Washington DC performing her work functions. As such, applying for telework
approval was not required. Upon further review of email correspondence and the input of other
staff, the review board found that the employee used the time in question: a) to respond with
valuable and substantive input on an on-call basis for information requests from the Mission in
Egypt and the evacuation group in Washington, b) to prepare administrative arrangements for
her check out from post which had been interrupted during the evacuation, and c) on approved
admin leave authorized by the Mission Director.

While some productivity was inevitably lost, that may be expected given the nature of an
evacuation and the separation and check-out process. The review board concluded that it
would not be warranted to collect overpayments from this former employee relevant to her
service during this period (see attached board memorandum).

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Five and no further actions are to be taken. Management requests closure of this
recommendation.


6. Develop, document, and implement mission’s procedures for obtaining appropriate
approvals for any deviations from U.S. Federal regulations regarding advances for
evacuation travel.

Management concurs to update its internal accounts payable procedures to clarify that all
payments should follow the governing regulations for the relevant payment type during an
evacuation. Further, although in the context of the evacuation no deviation was made, the
procedures will further clarify that any deviation from the governing regulation can only be made
based on the procedures contained in those governing regulations or other relevant guidance.

Based on the above, Management believes that a decision has been reached on Audit
Recommendation Number Six and will request closure of this recommendation upon updating
the internal procedures by 30 April 2012.


7. Document the availability of advances for U.S. direct hire staff during evacuations in
the mission’s procedures on financial management advances and accounts payable.

Management partially concurs with recommendation seven. Management agrees that well
written policies enhance both Agency and individual performance. Existing ADS, Federal Travel
Regulation, Depart of State Standardized Regulations and Mission standards address the issue
of advances, all of which were applied in this case. The basis for formulating additional
limitations, beyond existing federal and Agency policies is not clear. The Mission does not

                                                                                                25
                                                                                       Appendix II


normally provide USDH with travel or salary advances. In exceptional circumstances, FTR 301-
51.200 allows for travel advances for USDH in cases where financial hardship would be
incurred. In addition to FTR travel advances, DSSR 615 allows for salary advances in the
specific case of evacuations. The Mission did not provide any DSSR 615 salary advances. In
order to clarify the application of these various policies in the context of an evacuation
Management will update its accounts payable procedures to refer to FTR 301 guidance on
travel advances.

Therefore, Management believes that a decision has been reached on Audit Recommendation
Number Seven and will request closure of this recommendation upon updating the internal
procedures by 30 April 2012.


8. Include the requirement for the use of the government-sponsored travel card in
Section 7 of the AID 5-8 Travel Authorization Form to remind employees of their financial
management responsibilities.

Management takes note of the Audit’s findings on underutilization of the Government
Sponsored Travel Card (GSTC) by employees on evacuation status during the chaotic and
trying circumstances of the evacuation.

USAID/Egypt recognizes the importance of reminding Mission staff of use of the GSTC,
however it does not concur with the specific remedy included in the recommendation.
Management believes that publication of a Mission Notice of the summary after action review
(described in Management’s comment to Audit Recommendation Number Two of this report),
and circulation of that Notice again in the event of any future evacuation, is a more effective and
efficient way of reaching the same outcome.

A travel authorization is an affirmative statement giving details on the purpose, itinerary and
special details of a traveler’s departure from the duty station on official travel. Employees are
aware that they are expected to abide by applicable regulation and law in conducting their
travel, such as the DSSR, the FTR and the ADS, including the ADS rules related to use of the
travel card. Management has determined that it would be inappropriate and redundant to unduly
emphasize a small selection of specific rules and regulations in the travel authorizations, while
ignoring others that are equally important.

As such, Management has determined that a Mission Notice will better draw attention to this
and other important issues, and will more effectively serve as a reminder to Mission Staff.

Therefore a management decision has been reached and final action will occur with the release
of the summary after action review Mission Notice by 30 April 2012.


9. Issue a written reminder to all employees about the possible penalties for not following
the guidelines requiring the use of the government-sponsored travel card.

Management recognizes the importance of reminding staff of the requirement to use the
Government Sponsored Travel Card (GSTC). As previously stated in responses to the two prior
evacuation audit reports, a Mission Notice was issued on 18 August 2011 to remind employees
to use their GSTC. In addition, the summary after action review described in Management’s
comments to Audit Recommendation Number Two of this report will note this issue as well.

                                                                                                26
                                                                                         Appendix II


However, matters regarding penalties included in this recommendation fall outside the scope of
Mission responsibility and authority. The Office of the CFO is responsible for administration of
the GSTC. The application of any rules, or penalties, related to the GSTC are their
responsibility and at their discretion. Currently there is no rule specifically related to non-use of
the GSTC. Although, pursuant to 3 FAM 4300, a Foreign Service Officer may be admonished
for “Violation of any administrative regulations which do not provide a penalty,” which could
theoretically include failure to use the GSTC, to Management’s knowledge an admonishment by
USAID under this provision has not been applied in such instances. The Office of the CFO has
been made aware of this recommendation.

In addition, it is outside of the authority of the USAID/Egypt Mission to take disciplinary action
related to Foreign Service personnel. Foreign Service Disciplinary actions are regulated by
ADS 485, which refers to 3 FAM 4300. ADS 485 makes clear that only the Deputy Assistant
Administrator for Human Resources, Office of the Director, is responsible for serving as the
deciding officer on matters related to discipline of foreign service officers.

A final determination is beyond USAID/Egypt’s management control. USAID/Egypt will write the
OCFO and HR/Washington to inform them of RIG/Cairo’s recommendation regarding GSTC
penalties by 30 April 2012.

10. Determine the type of offense, administer the appropriate penalty, and document in
the appropriate mission or personnel file, if warranted.

Management recognizes the importance of reminding staff of the requirement to use the
Government Sponsored Travel Card (GSTC). As previously stated in responses to the two prior
evacuation audit reports, a Mission Notice was issued on 18 August 2011 to remind employees
to use their GSTC. In addition, the summary after action review described in Management’s
comments to Audit Recommendation Number Two of this report will note this issue.

However, matters regarding penalties included in this recommendation fall outside the scope of
Mission responsibility and authority. The Office of the CFO is responsible for administration of
the GSTC. The application of any rules, or penalties, related to the GSTC are also their
responsibility and at their discretion. Currently there is no rule specifically related to non-use of
the GSTC. Although, pursuant to 3 FAM 4300, a Foreign Service Officer may be admonished
for “Violation of any administrative regulations which do not provide a penalty,” which could
theoretically include failure to use the GSTC, to Management’s knowledge an admonishment by
USAID under this provision has not been applied in such instances. The Office of the CFO has
been made aware of this recommendation.

In addition, it is outside of the authority of the USAID/Egypt Mission to take disciplinary action
related to Foreign Service personnel. Foreign Service Disciplinary actions are regulated by
ADS 485, which refers to 3 FAM 4300. ADS 485 makes clear that only the Deputy Assistant
Administrator for Human Resources, Office of the Director, is responsible for serving as the
deciding officer on matters related to discipline of foreign service officers.

A final determination is beyond USAID/Egypt’s management control. USAID/Egypt will write the
OCFO and HR/Washington to inform them of RIG/Cairo’s recommendation regarding GSTC
penalties by 30 April 2012.

11. Provide and document training to financial management employees regarding the
appropriate supporting documents for financial transactions required to be retained in

                                                                                                     27
                                                                                      Appendix II


the mission’s electronic filing depository.

Management concurs. During the second quarter of fiscal year 2012 USAID/Cairo will move to
a paperless payment workflow process in its electronic filing system, ASIST, to facilitate the
payment process. A result of this paperless workflow will be that the entire voucher package
will be in ASIST. As the transition to the paperless process occurs training will be provided to
financial management employees.

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Eleven and will request closure of this recommendation upon completion of this training
course by 30 April 2012.


12. Develop a checklist of relevant documents that financial management employees can
use to verify the completeness of a travel voucher package before processing employee
reimbursements.

Management concurs. The Office of Financial Management will update its internal payment
procedures’ voucher examiner checklist to ensure that the voucher examiner confirms that a
valid obligation exists before a travel voucher is submitted to a certifying officer.

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Twelve and will request closure of this recommendation once the internal procedures
are updated by 30 April 2012.


13. Revise and implement its intra-governmental transactions recording procedures to
require the financial management employees to obtain, review and maintain supporting
documentation for all intra-governmental transactions.

Processing of intra-governmental transactions is necessarily a complex activity as multiple
agencies, offices, financial systems and employees are involved. It is important that a standard
solution be created at the agency level for this IPAC issue raised by RIG/Cairo. Due to this fact,
USAID/Cairo has referred this issue to the Office of the Chief Financial Officer for their
consideration. USAID/Egypt staff have discussed this issue with OCFO staff multiple times
since the evacuation occurred and has proposed a solution in an email dated 28 December
2011 (attached). A final determination is beyond USAID/Egypt’s management control.

Therefore USAID/Egypt requests that RIG/Cairo close Audit Recommendation Number
Thirteen, based on our formal request to the OCFO to make a determination.


14. Include guidance regarding the prohibited use of the United States’ military postal
service for unaccompanied baggage in Section 7 of the AID 5-8 Travel Authorization
Form, when warranted.

USAID/Egypt recognizes the importance of reminding Mission staff of prohibitions regarding use
of the military postal service for shipment of UAB, however does not concur with the specific
remedy included in the recommendation. Management believes that publication of a Mission
Notice which includes the summary after action review (described in Management’s comments
to Audit Recommendation Number Two of this report) which notes this issue, and circulation of

                                                                                               28
                                                                                        Appendix II


that notice again in the event of any future evacuation, is a more effective and efficient way of
reaching the same outcome.

A travel authorization is an affirmative statement giving details on the purpose, itinerary and
special details of a traveler’s departure from the duty station on official travel. Employees are
aware that they are expected to abide by applicable regulation and law in conducting their
travel, such as the DSSR, the FTR and the ADS, including the FAM rules related to proper use
of the military postal service. Management has determined that it would be inappropriate and
redundant to unduly emphasize a small selection of specific rules and regulations in the travel
authorizations, while ignoring others that are equally important. As such, Management has
determined that a Mission Notice will better draw attention to this and other important issues,
and will more effectively serve as a reminder to mission staff.

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Fourteen and will request closure of this recommendation upon issuance of the
summary after action review Mission Notice by 30 April 2012.


15. Periodically remind all travelers that they must file a travel voucher within five
business days of completion of travel or every 30 calendar days during extended travel.

Management concurs with this recommendation as it relates to evacuation travel. Therefore, in
its summary after action review (described in Management’s comments to Audit
Recommendation Number Two of this report) reminding mission staff of various relevant rules in
the context of an evacuation, Management will include a reminder of the general rule that
vouchers should be submitted as soon as practical, and within five days after travel. This
summary after action review will be issued as a Mission Notice and again in the event of any
future evacuation.

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Fifteen and will request closure of this recommendation upon issuance of the summary
after action review Mission Notice by 30 April 2012.


16. Include the requirement to submit travel reimbursement requests within five business
days after travel completion in Section 7 of the AID 5-8 Travel Authorization Form to
remind employees of their financial management responsibilities.

USAID/Egypt recognizes the importance of reminding Mission staff that vouchers should be
submitted as soon as practical, and within five days after travel, however it does not concur with
the specific remedy included in the recommendation. Management believes that publication of
a Mission Notice of a summary after action review (described in Management’s comments to
Audit Recommendation Number Two of this report) which notes this issue, and circulation of
that Notice again in the event of any future evacuation, is a more effective and efficient way of
reaching the same outcome.

A travel authorization is an affirmative statement giving details on the purpose, itinerary and
special details of a traveler’s departure from the duty station on official travel. Employees are
aware that they are expected to abide by applicable regulation and law in conducting their
travel, such as the DSSR, the FTR and the ADS. Management has determined that it would be
inappropriate and redundant to unduly emphasize a small selection of specific rules and

                                                                                                    29
                                                                                     Appendix II


regulations in the travel authorizations, while ignoring others that are equally important. As
such, Management has determined that a Mission Notice will better draw attention to this and
other important issues, and will more effectively serve as a reminder to Mission Staff.

Therefore, Management believes a decision has been reached on Audit Recommendation
Number Sixteen and will request closure of this recommendation upon issuance of the summary
after action review Mission Notice by 30 April 2012.




                                                                                                 30
                                                                                    Appendix III


       Some Allowances Available for Evacuated Employees
According to DSSR, Chapter 600, “Payments During an Ordered/Authorized Departure,” types
of authorized allowances and evacuation benefits include the following:

	 Travel Expense Allowances. As U.S. direct-hire employees and their dependents are in
   transit status, this regulation authorizes associated lodging and transportation costs, meals,
   etc., for them. The per diem rate is equal to the rate payable to the employee from the date
   of departure from the evacuated post through the date of arrival at the designated safe
   haven, including any delays en route that are beyond the evacuee’s control which may
   result from travel arrangements. Typically for a U.S. direct hire, Washington, D.C., or
   another U.S. duty station is the official safe haven. However, for dependents, a safe haven
   is any place in the United States or a foreign location based on DoS approval.

   In lieu of an airfreight allowance from post, a flat amount for airfreight replacement
   allowance may be granted to help defray costs of items normally part of the authorized
   airfreight shipment that must be purchased. The flat amounts are as follows:

      First evacuee without family: $250 

      First evacuee with one family member: $450 

      First evacuee with two or more family members: $600 


   Even when the airfreight replacement allowance is granted from post, evacuees are still
   eligible for an airfreight allowance when/if they return to post.

   Additionally, in the absence of a privately owned vehicle at the safe haven location, a
   transportation allowance to assist with unexpected local transportation costs may be paid in
   the amount of $25 per day, regardless of family size.

	 Subsistence Expense Allowance (SEA). When the official safe haven is designated as
   the United States, the SEA is based on safe haven location per diem. The first evacuee of a
   family unit is reimbursed for lodging expenses, based on either a commercial or
   noncommercial rate. When the officially designated safe haven is a foreign area, the SEA is
   based on the per diem rate of the designated foreign area. When an evacuee goes to an
   approved alternate safe haven, the SEA is based on the lower of the following per diem
   rates: (1) the locality to which evacuated, (2) the rate applicable to the official safe haven
   (whether U.S. or foreign), or (3) the standard continental rate within the United States.

   The daily per diem amounts allowed for days 1 through 30 following arrival at the safe haven
   location are up to 100 percent (or up to 150 percent for special family compositions) of the
   commercial lodging portion of the safe haven per diem rate (receipt required). An employee
   is eligible for special family composition reimbursement rate under any of the following
   situations: (a) First evacuee plus one, two or three (non-spouse or non-domestic partner)
   family members, age 18 or older of any gender or age 12 older of the opposite gender and
   (b) First evacuee plus four or more family members. For noncommercial lodging, the
   evacuee is reimbursed at 10 percent of the commercial rate only for the first 30 days. In
   addition, a flat amount (no receipts required) equal to100 percent of the M&IE portion of the
   safe haven per diem rate is allowed for the first evacuee. For each additional evacuee older
   than 18, allowances include a flat amount equal to 100 percent of the M&IE portion of the


                                                                                              31
                                                                                   Appendix III


   safe haven per diem rate; for each additional evacuee younger than 18, allowances include
   a flat amount equal to 50 percent of the M&IE portion.

   The daily per diem amounts allowed from the 31st day following arrival at the safe haven
   location through the end of the evacuation are up to 100 percent (or up to 150 percent for
   special family compositions) of the lodging portion of the safe haven per diem rate.
   Additionally, the regulations allow a flat amount equal to 80 percent of the M&IE portion of
   the safe haven per diem rate for the first evacuee. For each additional evacuee older than
   18, the regulations allow a flat amount equal to 80 percent of the M&IE portion of the safe
   haven per diem rate; for each additional evacuee younger than 18, the regulations allow a
   flat amount equal to 40 percent of the M&IE portion of the safe haven per diem rate.

	 Special Education Allowance. Unless otherwise directed by the Secretary of State, the
   regulations permit a special education allowance for children evacuated to the official safe
   haven.




                                                                                            32
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
                                              33
